WAIVE

Juprerne Court, U.S.
FILED

SEP 0 7 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

21-5306
Philip Murphy, et al.

Richard Arjun Kaul
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

C)

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

ED

19/1/21

SEP 9 2021

(Type or print) Name Michael T. Moran
0 Mr.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

0 Mrs.

0 Miss

Firm

New Jersey Office of the Attorney General, Division of Law

Address

R.J. Hughes Justice Complex, 25 Market Street, P.O. Box 116

City & State

Trenton, New Jersey

Phone

609-376-3377

Zip 08625
Email Michael.Moran@law.njoag.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Richard Arjun Kaul, pro se petitioner, 440c Somerset Drive, Pearl River, New York 10965
cc:

